Executive Report



Return to the USDOJ/OIG Home Page



Southern Ute Indian Tribe
	STOP Violence Against Indian Women Grant
GR-80-00-004December 14, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the STOP Violence Against Indian Women Grant, No. 96-WI-NX-0034, awarded to the Southern Ute Indian Tribe.  The $84,000 grant and $84,000 supplemental grant were awarded by the Office of Justice Programs on September 30, 1996, and June 1,1999, respectively.  Our audit focused solely on the original $84,000 grant and concentrated on, but was not limited to, the period of October 1, 1996, through September 30, 1999.

The Southern Ute Tribe generally complied with grant requirements related to grant expenditures, local matching costs and financial reporting; however, we noted the following weaknesses:


As of July 29, 1999, excess reimbursements totaling $18,745 had been requested and received.
	A $2,176 computer purchased with grant funds could not be located.
	Computer software purchased for $12,000 in October 1998 had not yet been placed into use.
	Progress reports were generally accurate but were not submitted timely.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in Appendix I.